4ow~
\

C@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B aa efs contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-351
NORRIS PAUL CAREY, JR.,
Petitioner,
v.
JOANNE THROWE, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF INOPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 6362 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska
A RENEE J, GOSS Konee 9. Lheoo Qudaw &. Chih
Notary Public

Affiant

40281
